No. --------

IN THE SUPREME COURT OF THE UN1TED STATES
MIL TON MOSLEY, Petitioner
vs.

UNITED STATES OF AMERICA, Respondent
On PETITION FOR WRIT OF CERTIORARI
In the United States Court of Appeals for the Third Circuit: Appeal 19-2050
MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
Petitioner, Milton Mosley, asks leave to file the accompanying petition for writ of
certiorari, without prepayment of costs, and to proceed informa pauperis. On 5/16/17
the United States District Court for the Middle District of PA ordered that Petitioner be
permitted to proceed informa pauperis in those courts and to be represented by court
appointed Criminal Justice Act Counsel, Michael 0. Palermo, Jr. Order attached.
Since the 5/16/17 granting of the IFP status by the United States District Court for the
Middle District of Pennsylvania, there has been no material change as to the Defendant's

sf""' 1.,;L

indigent status.
Dated:

Michael 0. Palermo, r., Esq.
3300 Trindle Road
Camp Hill, Pennsylvania 17011
(717) 635-9591
PA Supreme Court ID #93334
mop@palermolawoffices.com
Attorney for Petitioner Mosley

